IT

/■>v,

C

4 i-

r* /•>. r '
. W "T^~ 5T

r-r

.'I
Jj.

IN THE
SUPREME COURT OF THE UNITED STATES

The 9th Cir. Case No.: 21-55049 U

JUNG WON YUN — PETITIONER

VS.

CHUNG CHA KIM; et al — RESPONDENTS

On Petition for Writ of Certiorari
To The United States Supreme Court

PETITION FOR WRIT OF CERTIORARI

Petitioner/Appellant in Pro Per:
Jung Won Yun
1327 S. Catalina Street #16
Los Angeles, CA 90006
213-272-4454

Supreme'Court, U.s"
FILED

AUG 0 5 202!
OFFICE OF THE Cl FRk-

?
QUESTIONS PRESENTED = 1

Thank you very much for submitting the applicant's litigation documents. These days, American
society has almost stopped fundraising due to the Covid-19 outbreak and sluggish economic
activity. So it was difficult to find a lawyer. I am a 77 year old man who doesn't know how to use
a web-site. And I don't know the provisions related to the law. The legal documents requested
by the U.S. SUPREME COURT cannot be accurately prepared. Moreover, he is a Korean
American citizen with very poor English. So, because the document is written with Google
machine translation, the expression may be slightly different. However, I don't want to miss out
on the last trial opportunity and fail. Yesterday, I attached the litigation documents to the
respondent and their lawyers by registered mail and Priory Mail. The contents are copies of the
lawsuit documents sent to the Federal Supreme Court today. With this, "Proof of Service" was
first completed.
Here are my questions.
I don’t have a lawyer, so I have to prepare my own case papers. The applicant used the FORM
sent by the court to prepare the contents of the lawsuit. However, it is very difficult for me
because I cannot understand the rules.
1. We would appreciate it if you could let us know what the plaintiff has not yet submitted to the
court.
2. If there are any errors in the litigation documents submitted to the Federal Supreme Court,
please point out! Then, I will re-submit the complaint form.
It would be appreciated if you could inform us of the required Format and Form.
3. I have attached an application for deduction of trial processing fee. Is this enough ? Or, let
me know if you need more !
Attached is a copy of the filing of the $505 fee deduction application with the Federal Appeals
Court.
4. How long do I have to wait for the first Appeals case to be filed with the Supreme Court and
the second time to decide whether to adopt a trial (hearing) ?
5. Are interpreters provided by the court ? Or, does the applicant have to prepare ?
6. Can a lawyer be provided by the court ? If an attorney is not available, will the applicant
represent himself ?
7. Any other necessary information would be greatly appreciated.

P-2

T

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[x] All parties do not appear in the caption of the case on the cover page.
A list of all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
1.) JUNG WON YUN
2.)

- PETITIONER

CHUNG CHA KIM - RESPONDENT (wife)

3.)

MICHAEL KIM

- RESPONDENT (Son)

4.)

MONICA

- RESPONDENT ( Daughter-in-law )

KIM

RELATED CASES : ???

The petitioner (JUNG WON YUN) cannot answer, because he has no knowledge of the
provisions of the law. He will submit additional documents later when his lawyer is
appointed Thank you for your understanding.

P-3

4TABLE OF CONTENTS

1

OPINIONS BELOW

P-5

TABLE OF AUTHORITIES CITED

P-6

PETITION FOR WRIT OF CERTIORARI

P-7 ~ P-8

JURISDICTION
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED......................

P -9

STATEMENT OF THE CASE

P-10 ~ P-16

REASONS FOR GRANTING THE WRIT

P-17 ~ p-a 0

QUESTION PRESENTED = 2

P-21 ~ P-27

ASKING FOR PUNITIVE COMPENSATION
And ADDITIONAL INFORMATION.............

P-30 ~ P-32.
P-33

CONCLUSION

INDEX TO APPENDICES
Appendix A ; Decision of State Court of Appeals :
Appendix B ; Decision of State Trial Court:
Appendix C ; Decision of State Supreme Court Denying Review
Appendix D ; Opinion of United States Court of Appeals :
Appendix E ; Opinion of United States District Court
Central District of California
Appendix F ; Proof of Service
Appendix G ; Additional references
Appendix G ;
Appendix H ;

M

5

TABLE OF AUTHORITIES CITED

PAGE NUMBER

CASES

The petitioner (JUNG WON YUN) cannot answer, because he has no knowledge of the
provisions of the law.
The petitioner has no knowledge of anything related to the law. Therefore, He is
arguing with common sense and general knowledge and religious conscience.
He will submit additional documents later when his lawyer is appointed.
Thank you for your understanding.

STATUTES AND RULES:???

OTHER:???

P-5

"d7

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.

OPINIONS BELOW
[ x ] For cases from federal courts:
The opinion of the United States court of appeals appears,
at Appendix__" D "__to the petition and is
" Supreme Court of the U.S."
[ ? ] reported at
; or
[ ? ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

ii

£

m

[ ? ] reported at
the United States court of appeals
; or,
[ ? ] has been designated for publication but is not yet reported; or,
[ x ] is unpublished.
[ x ] For cases from state courts:
The opinion of the highest state court to review the merits appears at Appendix
" C "____ to the petition and is
[ ? ] reported at__" the United States district court"__; or,
[ ? ] has been designated for publication but is not yet reported; or,
[ x ] is unpublished.
The opinion of
appears at Appendix

" the United States district court"
" C"
to the petition and is.

[ ? ] reported at__" the United States district court"
; or
[ ? ] has been designated for publication but is not yet reported; or,
[ x ] is unpublished.
p-6

to

7=8

JURISDICTION
[ x ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case was "May 11
, ["DISMISSED"]___ .

2021"

[ x ] No petition for rehearing was timely filed in my case.
[ ? ] A timely petition for rehearing was denied by the United States Court of Appeals on
the following date:_
, and a copy of the order denying rehearing
appears at Appendix
[ ? ] An extension of time to file the petition for a writ of certiorari was granted to and
including
________(date)
on
(date) in Application No.
A

The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ x ] For cases from state courts:
The date on which the highest state court decided my case was__"Oct 14, 2020"
["lost jurisdiction"]______ ,
A copy of that decision appears at Appendix
"C"
[ ? ] A timely petition for rehearing was thereafter denied on the following
date: ______________________ , and a copy of the order denying rehearing appears at Appendix

[ ? ] An extension of time to file the petition for a writ of certiorari was granted to and
including
(date) in Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. by 1257(a),

[x] JURISDICTION [ petitioner's claim ] ;
{ Because it is Google mechanical translation, there is a slight difference in expression }
A social marriage is a marriage contract between the groom and the bride. It is intertwined like
two ropes. Flowever, in the marriage of born-again Christians, in the personal relationship of
Jesus, the groom and the bride, By the bride and groom promise to love each other until the
end. It is to confess that such a marriage is a covenant marriage.

7

Therefore, in covenant marriage, that is, in this marital relationship, Jesus always accompanies
(inherent). This is a threefold love relationship [Ecclesiastes 4:12], Therefore, the method of
marriage in social law and the method of marriage
in canon law are distinct. Therefore, it is logically appropriate to distinguish the divorce
method. Therefore, a request for divorce by born-again Christians must first be approved by
canon law. After then the divorce must be completed by family law. This is logically
correct. This is because our couple did not choose a wedding ceremony that follows social
customs, but a wedding sacrament that follows canon law within the freedom of
faith. Therefore, the marriage relationship promised with Jesus cannot be dismantled by social
law. The covenant that I will love my spouse with Jesus to the end, no matter what the
circumstances are, is eternal.
Therefore, it is impossible for humans to destroy it at will.
This is because this is a special mission that Jesus gave to married couples. Therefore, the
California Family Court does not have the jurisdiction to dismantle the covenant made with
Jesus as a social law. This covenant marriage is a personal one between Jesus and
us. Therefore, social law does not have the power to dismantle the marital relationship by
compulsory order. Moreover, because Jesus gave new life by shed blood on the cross, human
beings cannot break up the marital relationship with the daughter whom Jesus loves.
Therefore, it is logically inappropriate for the family court to judge(hearing) the divorce cases of
born-again Christians first by family law.
If divorce is first completed by social law, reconciliation or reunion between born-again
Christians is virtually impossible. And since born-again Christians are still canonically legally
married, so this is a separate state. Therefore, they cannot find another spouse and marry
again. This is unfortunate because the family court does not recognize the identity of
faith. Therefore, this is an unconstitutional judgment that violates the principle of freedom of
religion and equality and the right to pursue happiness guaranteed by the Constitution.

P-8

9
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

The petitioner (JUNG WON YUN) cannot answer,
because he has no knowledge of the provisions of the law.
The petitioner has no knowledge of anything related to the law.
Therefore, He is arguing with common sense and general knowledge and religious conscience.
He will submit additional documents later when his lawyer is appointed.
Thank you for your understanding.

p-1

10.11.12.13.14.15J6

STATEMENT OF THE CASE
{ Because it is Google mechanical translation, there is a slight difference in expression }
1. The Respondent's (wife and son) serious domestic violence
1.) If a pet that was raised at home in the United States is thrown out of the house,
it is considered animal abuse.
How much more, is the wife possible to drive the innocent legitimate husband into the
cold mountains in the middle of the night ? As a result, the petitioner(husband) was
taken to the emergency room. Respondent(wife) persecuted him for the habitual
domestic violence that deliberately expelled her husband from home several times last
during her marriage. The respondent left her ex-husband alone in the house. As a
result, she made her ex- husband die. Her ex-husband is a crippled man without one
leg. Therefore, it is a frail old man who absolutely needs a caregiver. Nevertheless, she
left her crippled husband alone in her home and went out for a long time. As a result,
she missed the opportunity for emergency treatment. Her current husband is a handicap
elderly man with arrhythmic heart disease, Respondent deliberately expelled her
husband into the dangerous mountains. If a heart attack occurs at that time, He can die.
This is a murderous violence beyond elder abuse. Even after these murderous domestic
violence, Respondent tried to kill her husband twice more. Because he was forced out
of her house, as a result, he was again taken to the emergency room. After these three
times domestic violences, Respondents filed for divorce in Family Court. Then she
asked to Petitioner for a restraining order. This was a typical malicious domestic
violence. However, the California Family Court justified the murderous domestic
violence of these Respondents. This is a judgment of unconstitutional human rights
suppression. The Family Court saw police reports and medical records, but ignored
them. This is The Family Court oversight negligent act.[Abuse of rights]. Respondent did
not even point out her husband's fault in the court statement. Respondent applied for
her restraining order for one thing only, because Petitioner came to the home to
reconcile with his wife. It is a natural right and duty for a legitimate husband to visit his
wife's house. Our couple got married to live together. Our couple lived happily until
before Respondent's son committed murderous violence against Petitioner.
2.) Nevertheless, the California Family Court ruled her husband a restraining order
for six years. In addition, these illegal necess restraining orders were converted into
domestic violence. And the court stopped paying spousal support payments. The
California Family Court's divorce judgment is a typical unconstitutional judgment that
ignores the basic human rights guaranteed by the United States Constitution. Therefore,
we strongly urge the Supreme Court of the United States to stop the California Family
Court's unconstitutional ruling.
2.

Breaking the marriage contract;
10

1.) Before marriage, our couple promised, "Unless there is a good reason for
divorce, we can never divorce." This promise was reaffirmed by the Catholic Canon Law
through the sacrament of marriage. Therefore, the legal marital relationship proclaimed
by the Canon Law for our couple is still in effect. The California Family Law does not
have the power to dissolve the marriage relationship proclaimed through the sacrament
of marriage.
This is an unconstitutional judgment that violates the freedom of faith guaranteed by the
Constitution. Therefore, Respondent must first obtain approval for divorce by Canon
Law before requesting divorce in Family Court. However, The Family Court ignored
Petitioner's request. The California Family Court unconditionally grants divorce. The
respondent was granted divorce by family law, but it is illegal under Canon Law.
Because, the son used murderous violence against his step-father, So Petitioner called
the police. However, "I was upset because my husband called the police on the phone,
so I asked for a divorce," she testified in court. This is not a legitimate reason for
divorce. Therefore she blocked the petitioner from getting re-married again. This is a
typical religious persecution.
2.) The California family court and respondent completely ignored the marriage
conditions promised by the couple. And this completely forgotten the identity of the
believer. Because for believers, following the promise of truth and mutual love is a
sacred belief that transcends the life. The client's attorney should respect the opinions
of the three Respondents and fill out the response form. Was Respondent married with
a clear Christian identity ? Ask if the children(son & daughters) supported their parents'
marriage with the same idea. True Christians are not people who live by the logic of
power or the logic of social law. They are people who live with the logic(law) of love and
forgiveness(reconciliation) above national law and power. So believers are people who
change the fallen world. Our couple clearly knew this fact, agreed on the condition of
marriage, and made a covenant. Respondents must submit a clear answer to Petitioner
claim to the court. The Supreme Court of the United States requests that the petitioner's
claim be heard in accordance with the U.S. Constitution, which guarantees freedom of
faith. If the court leave the Canon Law(spirit of love) and proceed with the legal process,
it is the same as the Sabbath Trial. They claimed that Jesus' healing of the sick on the
Sabbath violated the Sabbath law. So, they killed the innocent Jesus. Today, the
California Family Court is recreating an ancient Sabbath trial. Petitioner visited her
home to save his dying wife. The reason that the applicant continues to struggle in the
court so far is to restore the identity of the faith that the respondent's family has lost.
Only one reason is the promise of loving his wife until the end. The proof that we believe
in Jesus and are saved is because of Jesus' promise. This promise remains unchanged
forever. Therefore, our couple's promises are eternal because they are promised in the
name God, Jesus, and the Holy Spirit. Therefore, no law in this world (U.S. Constitution)
can break the marriage promise of our couple. This is called freedom of faith. And the
U.S. Constitution guarantees freedom of religion .
3. The son and daughter-in-law of the respondent (wife) encouraged the divorce of
their parents.
II

1.) The childrens(son and daughter-in-law) are demanding a divorce from his step­
father and their mother, using verbal abuse with reasons for managing their mother's
property.
Because they say that a mother's property is their property for children to inherit. So,
the property of the parents' apartment was changed to the name of her Son and
Daughter-in-law. Further, the properties registered in the name of the rest of the mother.
The name was changed to the joint property of Kim's family. Likewise, they mistakenly
think that their step-father is stealing the mother's property. This is not true. Petitioner's
conscience is different from that of unbelievers. Our couple was married with a Christian
identity. That is why all property should be used according to God's will. During his
marriage, Petitioner never asked to his wife for money as a spouse's right. Because of
the identity of Petitioner, there was a conflict between the wife and her children.
2.) Therefore, the Kim's family married without regard to their husband as their
family. This is the root cause. That's why they kicked their husband out of the house
during their marriage. Therefore, they decided to deceive and marry their husband from
the beginning.
The children have intervened in the marriage life of their parents since the beginning of
our marriage and have been making adjustments from behind. So, through a divorce
lawsuit and an order of restraining access, they thoroughly blocked her husband.
4.

Our marriage condition was satisfied with only one Christian identity.

1.) Because the success and happiness in marriage is possible when following
Canon Law. This is because Christian identity is a guideline for the whole of life. So,
Petitioner was not interested in his spouse's background (property, education, other
conditions, etc.) before marriage. Therefore, Petitioner has never asked about his
spouse's wealth and education until now. So, Petitioner still does not know how much
money his spouse has. The couple's marriage would have been impossible from the
beginning, unless Respondent promised only one marriage condition. Here, the
marriage condition and the identity of the believer emphasized by Petitioner means
living as a child of God who has been regenerated. Therefore, we are all precious
beings who live the life of Jesus disciples. This means that we are given the
responsibility and duty to live in the image of little Jesus. Therefore, our couple are
soldiers fighting the evils of the world. This is called the Salvation Army.
2.) By the way, now, Respondent has decided to divorce without complying with the
canon law. This is the same as the people of the world who have departed from the
nature of believers. Therefore, there is no conscience regret for sin. So, the marriage of
our couple became a completely fraudulent marriage. This is Jesus who saved
Petitioner(& dependent) from sin and made him God's people, but it is an act of
complete betrayal. For that reason, the shock of the divorce has totally ruined
Petitioner's life. As a result, the plaintiff's suffering became irreversible.
Nevertheless, they're became disabled, unable to feel their own pain. But the Petitioner
(husband) loves his wife, son and daughter-in-law. So I have been praying for their

IZ

dead soul.
Today the Petitioner pray again to God every morning in church. It has already been
over 3 years. Because Petitioner cannot save the dead soul with his strength and
power, The humans cannot save the dead soul. Because only the living Holy Spirit God
can bring their souls back to life. This is proof that the Petitioner loves the Kim's family.
5.

To love his wife is an order of the God to devote his life.

1.) Because his wife is a child created in the image of God. It is because Jesus died
while bleeding on the cross to go further and save the daughter. However, no matter
how precious his wife is, Petitioner cannot love with evils and sin together. This means
that if both couples are destroyed the promise, they will eventually be punished for
death. Respondent is a prestigious family that has inherited the tradition of faith for the
four generation from her ancestors. She is a true Christian born again. Therefore, we
must restore the identity of a believer. Just as the children leave their parents when they
marry, so parents also must be separated from their children when they marry. The
children should not interfere with the parents' marriage. This is the cause of this family's
misery. By the way, because Respondent loves her child unconditionally, she is also
covering the sins of her son. This is the same as Adam ate the fruits of his wife's fruit of
good and evil, and eventually died together. Therefore, it is not justified for Respondent
to persecute her husband.
2.) This generation of today, the Family Court which is supposed to protect the
families has turned into a monster to destroy the families. This is an unconstitutional
judgment that violates the freedom of faith guaranteed by the Constitution. The cruelest
crime in the world is to betray Him who loved me and gave to me one's life. The first is
to betray the Lord, who sacrificed his life to save me. The second is to betray our
parents who gave birth to me. The third is the act of betraying my spouse who married
me. The common point here is that the they who betrays the person who loves me does
not feel pain due to the death of a good conscience. However, it is true that Jesus, his
parents and spouse, who have lost their loved ones, die from extreme pain. The pain of
not forgetting a loved one is eternal.
This can only be healed when the person who left is returned. That's why I wait blindly.
This is the nature of love, therefore, this is a murder that kills the person who loves me
twice. This is the famous parable of the prodigal son who left his father's house. Here
the Father is God and the prodigal son refers to me. Therefore, not repenting, attending
Mass and receiving the Holy Eucharist is a deceitful act that deceives God and delusory
themselves. How long will you live a life of deceit ? Soon after, our lives are over, and
judgment awaits before God, whether good or bad. In the history of mankind, no one
has ever won by fighting God. Those who broke their promises with God were surely
punished.
6.

God's law is Righteousness, But God is love.

1.) This is God's law [Righteousness].The promise of God's salvation of sinful
mankind and His love for the end of the world is eternal. The promise of love between

I3

couples is the same. However, it is also God's Law to forgive and love those who have
sinned [ Love ].
2.) The 12 disciples who followed Jesus also ran away because their mentor was
arrested, bleeding on the cross, and executed. Even Judas Iscariot sold his teacher to
eat, Judas Iscariot's betrayal chose to commit suicide in which the intestines burst to
death. But when Peter who betrayed Jesus, chose to repent and follow the Lord, he was
born again as a Great Apostle. In this way, we are all weak and can always betray
Jesus who saved me. But Jesus never gives up on what he once promised. Because,
Jesus was punished on the cross for the sins of all who betrayed God and left.
Therefore, He keeps waiting until we return to God. Christians refer to following in the
footsteps of Jesus as the identity of faith. The promise of love between couples is the
same. Like this, freedom of faith is guaranteed by the .Constitution. So, you can't never
dissolve a marital relationship through family law. This is unconstitutional.
7.

Loving is the last mission in his life, commanded from the God.

1.) If Petitioner's wife is lying sick, it is natural for Petitioner to take care of her, Like
this, the present wife is groaning with a sick heart. She is crying out and pleading for
healing of her own painful heart. This pain of his wife can only be heard by those who
love her. By the way, because her son and daughter-in-law committed murderous
assault on her mother's husband, the children lost their religious identity. As a result,
they could not hear her mother's groaning, and they drove his mother's husband out of
her house. Going further, he threatened his mother and encouraged to divorce. If the
children really love their mother, then they can never commit the unimaginable bully
atrocities. This is the pinnacle of unforgivable sin.
2.) Therefore, Respondent and her family must return from their past mistakes, pray
forgiveness to the God they trust and rely on, and be born again. Petitioner has been
praying for a long time for his loved families to restore their Christian identity.
Nowadays, the God he trusts and depends on has given him the confidence that he will
answer Petitioner's prayers. Therefore, Petitioner believes God will heal the hearts of
his beloved families as well. The only person in this world who can heal a wife's painful
heart is her husband, who walks with the living Holy Spirit. The son, her daughter-inlaw, and daughter are deliberately turning away from this obvious fact. Because
Respondents sinned against the living God, the good conscience died. So, they are
blind even if they are alive.
8.

Social law should not judge a marriage relationship with God.

1.) My beloved wife is 80 years old. Someone needs a caregiver (helper) to help
her, like a friend, next to her. So, only her husband is the best fit. However, her life is
now tied to her children [son and daughter-in-law] whose conscience has fallen. So,
she is living alone by herself. This is a miserable life. Since Petitioner is the husband of
the wife, Petitioner has a good duty and a sense of responsibility to rescue his silent
wife.

I4-

2.) This is the last mission in his life, commanded the God I trust and depend on.
The saved saints are the soldiers of the kingdom of heaven. They are the Salvation
Army who carry out Jesus' Great Commission. Therefore, soldiers cannot be judged by
social law.
3.) Even more, the covenant marriage relationship is a triangle between me, Jesus,
and my wife. Therefore, social law should not relate to, condemn, or judge a marriage
relationship with God. This becomes a sin in which the corrupt social system created by
man invades the realm of God. Therefore, the California family courts do not have the
power to trial divorce cases first before the church courts.
9.

CONCLUSION ;

So, no one in this world can break the strong will of Petitioner.
1. The divorce lawsuit requested by Respondent Chong Ja Kim should be nullified for
the following reasons.
1.) This is because Respondent violated the marriage conditions promised with
the spouse before marriage.
2.) Before Respondent requested divorce in the Family Court, Respondent did not
first obtain approval for divorce yunder the Catholic Canon Law.
3.) Therefore, the California Family Court has no authority to hear the divorce suit
requested by the Respondent.
4.) This violates the freedom of faith guaranteed by the Constitution.
5.) If, the divorce lawsuit is unilateral requested without a legitimate valid reason
for divorce and without agreement between a couple, it is an abuse of the divorce right.
2.

The restraining order should be reversed for the following reasons.

1.) The fact that Respondent requests a restraining order to an innocent legitimate
husband violates the promise of love made between the couple.
2.) Respondent first drove her innocent legal husband out of the house. This is
serious elder abuse and domestic violence. It is also a violation of the marriage
promise. So, The defendant must first reflect on herself.
3.) it cannot be considered domestic violence for Petitioner to come to the house
to comfort his wife. This cannot be the reason for the restraining order.
3.

The issues regarding Respondent's son and daughter-in-law

1.) The son committed serious violence against his step-father. And it was
encouraging the divorce of his parents. This is a heinous criminal act.
2.) The son and daughter-in-law hurt to their parents irreparable trauma.
3.) Therefore, a punitive compensation of $400,000 will be paid as a donation to
the Family Ministry Center. INC [non-profit corporation] requested by Petitioner. This

IS

support fund should be used as a mission fund to help neighbors in need by agreement
between the Kim's family. Therefore, annual ministry activity reports and tax reports
must be submitted to the I.R.S. If the Kim's family volunteers to help the
underprivileged with gratitude, first of all, God will be very happy. Then, the hearts of the
Kim's family will be filled with joy from God. This is the word of truth that God has
promised to us. Going further, as a reward, the soul of the father of the Kim's family who
are in the purgatory will enter in the heaven. This will be a happy life for the Kim's family
to reveal the glory of God.
4. If the Supreme Court of the United States decides to allow oral argument of the
petitioner's petition, he will hire an attorney through the fundraising effort and defend in
court.. Petitioner strongly prays the U.S. Supreme Court to adopt the petitioner's case
and contribute to the development of the American country.
Thank you very much !!
Respetfully submitted,
July 30, 2021

Jung Won Yun, Petitioner

P-I6

17.18.19

"STATEMENT THAT APPEAL SHOULD GO FORWARD "
" REASONS FOR GRANTING THE PETITION "
{ Because it is Google mechanical translation, there is a slight difference in
expression}
I. Date(s) of entry of judgment or order(s) you are challenging in this appeal: on May
II,2021_____ .
Petitioner received a letter from UNITED STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT. The content of the letter was an ORDER stating that the petitioner's
case of appeal was "DISMISSED". He received this by mail on May 15, 2021_____ .
He has attached the letter as Appendix.: "D"______ .
2. What claims did you raise to the court below ?
The California Family Court decision is unconstitutional in violation of human rights,
equality and freedom of faith. However, the federal district court decided that it had no
jurisdiction.
3. What do you think the court below did wrong ?
Petitioner does not understand that the Federal Court of Appeals dismissed the
petitioner's case of appeal. The Federal Court of Appeals concluded that the petitioner's
appeal case was "frivolous", and thus the appeal was dismissed. However, the Federal
Court of Appeals did not specifically explain why and what was "frivolous." Thus, the
Federal Court of Appeals ignored the essential matters of the case and dismissed the
appeal case because of the "frivolous", a side issue.
So, Petitioner feels to die as he was unfairly treated.
4. Why are these errors serious enough that this appeal should go forward ?
(1) The California family law has an institutional contradiction in law enforcement.
This consequently claims there are enough elements that are unconstitutional. The
process of divorce cases in California Family Court has a structural contradiction. Thus,
this led to a judgment violating the Constitution. The petitioner has the principle of
protecting the identity of a Christian. So he was forced to fight the evil and injustice of
the world. In fact, the California Family Court has not even pointed out the petitioner's
fault during the legal process. The decision of the California Family Court was
unconstitutional, violating the human rights, equality, happiness, and freedom of religion
of the petitioner(victim). Thus, the Federal Court of Appeals ignored the essential
matters of the trial and dismissed the appeal case because of the "frivolous" a side
issue. Few things are perfect in this world. Thus, the U.S. Supreme Court has been

n

given the responsibility to find out whether the California Family Court's "divorce
decision" and "inappropriateness of the restraining order" and the spouse's "spousal
support suspension order" were in error in constitutional standards. Today's American
society is facing a national crisis due to the abuse of the divorce right. In the short
history of the United States, when President Kennedy was in office, after the executive
order to stop praying in public schools, American society rapidly collapsed. This is a
common view of psychosocial scientists. We are well aware that the resistance of a
weak woman has been sublimated into a great civil rights movement [Martin Luther King
Day], If the abuse of the divorce right is neglected as it is, it will be a shortcut to leading
American society to ruin. This is because modern American society rapidly resembles
the fall of the ancient Roman Empire.
(2) The marriage relationship between two people begins when the bride and groom
believe in the promise that they will love each other to the end, and the wedding host
declares that "they have become a legal couple."
Therefore, the government only takes charge of the function of receiving and registering
the marriage relationship between two people. The family court has no involvement
here.
However, even though the legal marriage relationship continues, the family court is
making the mistake of meddling in the marriage. From whom has the family court been
delegated the authority to forcibly terminate the relationship of the marriage
promise(covenant/contract) ?
In Korea, where I was born, until about 100 years ago, daughters who got married and
left their parents' homes became the family of their married husbands.
So she was kicked out of her husband and she could not return to her mother's
house. In other words, even in the midst of her husband's unrighteous behavior and
persecution, divorce was unthinkable.
The Creator(God) made human beings in their own image, created a marriage system
for the creatures living alone, and directly married two people. And, he said, "God
commanded never to divide what became one bodly". This is because if you separate
the one body, both will die. However, fallen humans are violating the will of God and
claiming the right to divorce. Claiming the right to divorce is a murder that kills the other
person's spouse and also kills oneself. This is the same as God's command: "If you eat
of the tree of knowledge, you will surely die." God never gave humans the right to
divorce. Therefore, today's divorce system is clearly illegal. Therefore, the divorce
trial(hearing) of the California Family Court is illegal because it ignores the will of
God. Moreover, to apply the claims of unbelievers against God's will to Christians who
obey God's commands is clearly reverse discrimination that infringes on the right to
equality. This is the California Family Court's disregard for the identity of
faith. Therefore, this is an unconstitutional judgment that violates the freedom of
religion.
Therefore, a unilateral divorce request by one of the spouses cannot be a legitimate
right. Because this is a breach of promise. The court is the department that judges and
enforces the promise, that is, the law fairly. If the court ignores and justifies the breach
of promise(law), the national order will be immediately disrupted. This is the principle of
the creative order.

18

(3) The American Declaration of Independence guarantees their right to equality
granted by the Creator(God).
And the Constitution protects human rights. Therefore, a unilateral divorce request
without a valid reason for divorce should be rejected. The California Family Court is
taking the lead in bringing about a national catastrophe by granting spouses an abuse
of their right to divorce. This will lead to national destruction.
Because the basic unit of the state is the family. Therefore, if the family is corrupted
and broken, the state is the same. The United States is currently in total national
crisis. Therefore, the U.S. Supreme Court must limit the abuse of the trial power of the
California Family Court that violates the spirit of the Constitution. This will be the only
way the American nation can be resurrected. Therefore, the U.S. Supreme Court would
be very grateful if the petitioner's appeal must be adopted and heard in order to save
the country and it's people.
(4) Failure to recognize Christian identity is spiritual murder. Because they are new
creations that Jesus, the Creator God, became a man and saved them from death,
which inevitably leads to eternal destruction, and was born again with the life of
Jesus. They are thus distinct from unbelievers. Therefore, thanks to Jesus' grace for
saving me, they are Jesus' disciples who voluntarily follow God's commands. However,
the California Family Court's decision to recognize the claims of unbelievers who deny
and disobey God as legitimate rights is clearly indistinguishable.
A legal couple married through the sacrament of marriage
According to the will and command of the Creator, the confession of faith that divorce
cannot be done without just cause is freedom of religion. Therefore, the same
application of the divorce rights of unbelievers who disobey God to Christians who were
married through the sacrament of marriage would result in reverse discrimination. This
violates the right to equality guaranteed by the Declaration of Independence and the
Constitution.
The petitioner had clearly argued for equality and freedom of religion during the trial of
the first divorce. However, the California Family Court, the plaintiff's argument was
dismissed. Therefore, the decision to divorce the California Family Court, which must
protect the Constitution, is clearly unconstitutional.
Freedom of religion is acknowledging the claims and distinctions of the people of the
world. Therefore, the California Family Court decision is unconstitutional, denying
freedom of religion. Do you admit this ?
(5) Because faith apart from God is by nature children of wrath, it becomes corrupted
and loses morality. Therefore, freedom without morality is inevitably the vanguard of
destruction. The freedom America won was not free. It is a noble value obtained
through the sacrifice and death of countless people. Today's America is on the verge of
rapid decline. And the nation itself is moving away from belief in God and transitioning
to socialism in a world of disbelief. The sensible American people are very
anxious. World history proves this. The fall of the ancient Roman Empire was not due
to external aggression, but the corruption of the people. Today's America is following
the same train. Therefore, the state must take the lead in protecting the people. At the

IS

toretront ot this is the U.S. Supreme Court. However, today's California Family Court ~
does not recognize the identity of faith following God. This is a shortcut that will soon
lead to the collapse of the country. Because the historians of the world also warn us
strongly in the Bible. Therefore, the U.S. Supreme Court must recognize the covenant
marriage relationship that was sworn in by God, made by the promise of
love. Therefore, it is clearly an abuse of the right to divorce for Christians to abandon
their religious identity(canon law) and claim the freedom of a unilateral divorce without
justifiable grounds for divorce and without mutual consent. Therefore, it would be
greatly appreciated if the petitioner's appeal must be adopted and heard.
(6) The sacrifice and martyrdom of American missionaries who delivered the gospel
to the dark land 100 years ago have made Korea today a prosperous nation. And it is
sending out the second largest number of missionaries to the world after the United
States. As a result, the power of the gospel restored the human rights of women who
were bound by it.
However, women's human rights defenders who have forgotten the grace of the gospel
are making the mistake of forgetting their noble freedom and abusing their right to
divorce. Moreover, even born-again Christians who live by the grace of the gospel are
abusing their right to divorce. My spouse is the object of love that I should love until the
end. Our couple clearly recognized this fact and became a couple through covenant of
marriage vows. The spouse is not a stranger. We are oneself as one body. Jesus'
command to love your neighbor as yourself is a command that must be applied to
married couples. Therefore, hating your spouse is murder. But unfortunately, the
California Family Court justify the spouse's mental murder.
When I love my neighbors with the joy of salvation, this will be evidence that I love God
soon. So my nearest neighbor is my spouse. So the spouse that promised to love to the
end is the same as Jesus. Because Jesus is inherent in my wife and accompanies with
her. Therefore, to love my wife is to love God soon. This is because Jesus declared the
truth directly.
Therefore, despite the absence of a legitimate reason for divorce, the California Family
Court's divorce decision made the husband unable to love his wife. This is an act of
rebellion against God's command. This is religious oppression. Therefore, this is an
unconstitutional judgment that clearly violates freedom of religion.
Therefore, the nation of the United States, founded by the Gospel, has been reduced to
an unfortunate nation that rejects God's love. Today's United States of America has
become a corrupt country that persecutes faithful Christians, although its
constitution proclaims freedom of religion.
Therefore, the petitioner is to spread the gospel that I have received back to American
society.
This is to repay the grace I have received .
Thank you very much !!!

30

.21.22.23.24.25.26.27.

QUESTIONS PRESENTED = 2
{ Because it is Google mechanical translation, there is a slight difference in
expression}

Question - 1 ; "in religious freedom "
1.) The founding ideology of the United States is a great nation armed with a Christian
spirit, based on biblical values. The Declaration of Independence of the United States
states, "All people are created equal and have the right to life, liberty, and
happiness." Therefore, the rights granted to people by the Creator(God) cannot be
transferred or taken away from others. Therefore, the government is given the role of
protecting and repairing the creation order(principles) as evidenced by the Bible,
conscience and the laws of nature. However, many of the current policies are far from
the principle of creation(the Bible), and are heading towards the corrupt will of man. A
typical example is the abuse of the right to divorce. Even born-again Christians are
breaking the legal marriage relationship they have made with their God through social
law. This is because the California Family Court does not recognize the religious
identity of born-again Christians. This is becoming the main culprit for family break­
up. is this right ?
2.) Inauguration of the president of the United States take the oath of office with their
hands on the Bible to pledge themselves to govern in a Christian spirit, is this right ?
3.) Is it true that drawing "IN GOD WE TRUST" on US currency and coins is a lesson
to the people to live in a Christian spirit ? is this right ?
4.) After an executive order to stop praying in American public schools, the social order
in America rapidly deteriorated. The American people are terribly sorry for this. For
such a social phenomenon, the most common cause, the prayer is to stop praying, and
social psychology scientists are claiming in common. Do you admit this ?
5.) In freedom of religion, Christians, as distinguished from social marriage, establish a
covenant marriage relationship as the bride and groom promise to an oath of love in the
Holy Trinity(God). Do you admit this ?
6.) Therefore, the love of Jesus is inherent in the marriage life relationship of
Christians. Do you admit this ?
7.) God's love is eternal. Therefore, the promise of love between the couple is also
eternal. Do you admit this ?

3.1

IT] l hus, marriage and divorce among Chfisliarrs-mtist be distinguished from4
custom of social marriage and divorce among unbelievers. Do you admit this ?
9.) Unbelievers ask for a divorce as a social custom. So the marriage is
broken. Therefore, it is not fair for the California Family Court to apply the social divorce
law equally to Christians. Do you admit this ?
10.) The California Family Court grants unconditional permission for Christians to file
for divorce as a social custom. Do you admit this ?
11.) The California Family Court allows one spouse to request a unilateral divorce
without a valid reason for divorce or without the consent of both parties. Therefore, it is
a violation of the principle of fairness for the California Family Court to apply the social
divorce law equally to Christians. This is because, for all Christians, couples lose the
opportunity to reconcile. This is an unconstitutional ruling that violates the principle of
equality. Do you admit this ?
12.) Therefore, the California Family Court does not recognize the distinct religious
identity of Christians. This is an unconstitutional ruling that violates freedom of
religion. Do you admit this ?
13.) Most of the causes of conflict between couples are the lack of agape love. Jesus
is the source and provider of agape love. Therefore, it is not common sense or rational
logic for the court to judge(hearing) the love of God. Because the marriage relationship
of the covenant, the love of Jesus is eternally inherent between the couple. To believe
in this is freedom[identity] of faith. This freedom of religion is guaranteed by the
Constitution. Therefore, the California Family Court does not have the
power(jurisdiction) to hear a Christian's divorce request. Therefore, before dissolving a
legal marital relationship through the sacrament of marriage, the divorce requester must
first obtain approval of the divorce by the canon law. After that, it is the right order for
the family court to proceed with the divorce hearing. Therefore, the California Family
Court's divorce hearings have institutional inconsistencies in the law enforcement
process. Do you admit this ?
14.) Today, in this age, they insist on freedom of religion, but rather persecute the
religious practices of Christians. The first is a national order to suspend prayer in public
schools. We remember President Trump stating that we can pray in public
schools. The second case is to apply the social divorce law to born-again Christians.
Therefore, they betray the marriage relationship of the covenant made through the
sacrament of marriage and demand the freedom of the right to divorce.
The identity of born-again Christians is that they are distinct from those of
society. Therefore, they pursue values that are distinct from the customs of the world
[Romans 12:1-2], Applying social law to Christians is a murderous command
for Christians to give up their religious identity. This is a social divorce law that
persecutes Christians' freedom of faith. In the history of mankind, many believers have
sacrificed their lives to protect the identity of their faith. The martyrdom of this faith
ISA

continues to this day. Do you admit this-?15.) Regenerated Christians value the preservation of their religious identity more
precious than their own lives. The Petitioner(husband) testified at the first divorce
trial(hearing). This is not fair, we argued, because the shock of a divorce is one that
could kill the other spouse. In the Venice Merchant's trial, he could claim a pound of
breast meat in his own right, but not the right to kill his opponent by bleeding. The
husband and wife were aware of this fact and agreed to the terms of the marriage. The
respondent and her wife's family can claim the right to divorce, but they do not grant the
right to kill the other spouse by shocking them. Petitioner(husband) had actually
attempted suicide several times. We made a clear promise before we got married. And
I've said it many times during our marriage, and I've warned everyone to her
family. Therefore, this violates the principle of fairness. However, the judge of the
Family Court rejected the claimant's(defendant/husband) claim. Therefore, this violates
the principle of equality guaranteed by the Constitution, the dignity of life, freedom of
religion, and the right to pursue happiness. Do you admit this ?
Question : How does the U.S. Supreme Court interpret Petitioner's(Husband) question
as described above ?

Question - 2 ; " Regarding the divorce request of the respondent(wife) and refusal of
reconciliation "
1.) The respondent(wife) filed for a social divorce against her first husband. This is a
state of separation by canon law. She married her second husband in a social way. But
according to canon law, this is also double marriage and adultery. And the respondent
requested conversion from Protestantism to Catholicism in the process of marrying her
current husband in her third marriage. And she asked her spouse for a church trial to
resolve the marital disorder(Jodang). Our couple resolved the husband's marital
disorder and got married legally at the church. Therefore, the respondent thoroughly
requested marriage according to canon law from the spouse. However, the wife was
canonically illegal in first and second marriages and divorces. However, the respondent
cheated on her spouse knowing that the process of marriage and divorce with her third
current husband was illegal under church law, and the wife deliberately requested a
social divorce. This means that the respondent abandoned the identity of faith and
violated the canon law. Therefore, since it is a fraudulent marriage, the marriage is
fundamentally annulled.
Therefore, the divorce petition itself cannot be established. This is an abuse of the
social divorce law, a typical abuse of the right to divorce. The husband and wife are
currently separated by church law. Therefore, it made it impossible for the spouse to
remarry. This is religious betrayal and violence.
2.) Nevertheless, covenant marriage is sacred, and the promise of love made in God is
eternal.[Joshua 9: 19, 22], Petitioner's request is for the Supreme Court recognize to

S3

tne nusoand's love. As he piuclaims1
her life. Justice(law) can maintain order in the world, but it is the power(law) of love, not
justice, that repents of wrongdoing and changes the fallen world. Therefore, to exclude
the power(law) of love from the family court is to undermine the reconciliation efforts
between the couple.
This is the family courts fundamental disregard for the power of great change of
faith. This is because the concept of justice is another expression of love that ultimately
achieves love. Because the home is an organism maintained by the promise of
love. Therefore, the family court must judge(deliberate) according to the formula(law) of
love.
This is because the Family Court is not a place where criminal trials are
conducted. This is because family problems cannot be maintained by legal logic. The
applicant has been fighting until now to restore a broken family and to save a dying
husband and my beloved wife. However, the California Family Court has fundamentally
blocked the importance of the family and efforts to reconcile the couple. This is an error
of judging the concept of love with legal logic. The law of justice is ultimately a process
and means to achieve love. Therefore, the judgment of the Family Court, which
excludes the law of love, is an error in which the means of enforcing the law ignores its
purpose. That is why the husband has repeatedly requested reconciliation with his
wife. However, the respondent(wife) has not responded so far. The husband and wife
agreed to marriage based on our Christian identity(spirit). However, the respondents
are disregarding the conditions of marriage, they requested for divorce without any
justifiable reason. They broke the terms of marriage between the couple, saying, "We
cannot divorce without a just cause." However, the love of God can never break the
marriage relationship of the covenant. The Family Court's decision to divorce, which
ignores the nature of love, is an unconstitutional ruling that renounces religious
freedom. Because social law(law of justice) is the means and process of perfecting
love. Therefore, the lower social law cannot condemn the higher law of love. [Romans
8: 38-39],
Keeping promises is the true freedom, and order can be maintained, Vs, on the other
hand, to break a promise is indulgence and not freedom. You can claim your right only
when you keep your promise (law). Therefore, it is illegal for the respondent(wife) and
her family to request a divorce from their spouses, and it is an abuse of the right to
divorce.
Do you admit this ?
Question: How should the U.S. Supreme Court interpret the disbelief attitude of
rejecting, wife's request for divorce and her request for reconciliation with her husband,
the response described above ?

Question - 3 ; " About freedom of expression "
This can be confirmed by looking at the stenographic record of the first divorce
trial(hearing).

a?

'The family com I stopped the religious argument itself during the trialfhearinn)_process.
This violates the "freedom of expression," which allows the defendant to speak freely in
court. Therefore, the family court does not recognize the Christian's marriage and
divorce system itself.
The Christian identity is a person distinct from the common people. Thus, Christian's
marriage and divorce must be distinguished from social marriage. This is religious
freedom.
Therefore, the California Family Court is unconstitutional in violation of freedom of
expression and religious freedom.
Q: Flow does the Federal Supreme Court interpret the above explanation ?

Question - 4 ; " The family court did not recognize the plaintiff's(wife) serious
murderous violence, but justified it."
1.) During the first divorce trial(hearing), the defendant(husband) claimed that the
plaintiff(wife) was a victim of serious domestic violence. This fact is based on the
"Declaration of Jung won Yun - (1)" submitted to the court before the trial(hearing) date.
On Dec 10, 2017. And it is described in detail, in However, the family court "did not
recognize domestic violence itself because the defendant(husband) did not apply for a
restraining order." Therefore, the family court did not recognize all the police reports and
hospital records submitted by the defendant(husband) to the court.
The defendant(husband) testified during the restraining order trial and divorce hearing.
It was not possible to request a restraining order against the plaintiff (wife)
(1) because of a request for marital reconciliation against the plaintiff,
(2) because of a marriage promise to love his wife to the end,
(3) because of a conscience of faith.
2.) However, the plaintiff's(wife) murderous domestic violence cannot be justified,
because the defendant did not follow the restraining order. This is an institutional
contradiction in the law enforcement process. In petitioner(wife) inflicted fatal wounds to
death on her innocent spouse in her abuse of the right to divorce. This is the "Incurable
Trauma". So, her husband became a living corpse now. The only way for a dead
husband to live is for the wife to be born again in Jesus. This is impossible with the
logic of human effort or power. That is why we continue to pray to God.
Q: How does the U.S. Supreme Court interpret the defendant's argument described
above ?

Question - 5 ; " About illegal access restraining orders."

admitted that there was no evidence of domestically violence. If so, the restraining
order requested against the legitimate husband should be dismissed. But
unexpectedly, the judge took issue with the husband's visit to his wife's house to
comfort her. It is a legitimate right and duty for legally married couples to meet each
other. This is completely nonsense. After Jesus healed the sick on the Sabbath, the
Jewish religious leaders accused Jesus of breaking the Sabbath law. As such, the
California family court took a husband who had visited his wife's house to save her
family, issued a restraining order, and stopped paying her spousal support. In addition,
the divorce request of the respondent(wife) who violated the marriage conditions without
justifiable reasons was granted as it is. This is the same as Pilate's trial where the
California family court executed the innocent Jesus.
The husband and wife lived happily together until our son assaulted his step-father. It is
a violation of the marriage promise in itself for a wife to expel her innocent husband
from her home, to ask for a divorce from her legal husband, and she asked her husband
for a restraining order.
The TRO requested by the plaintiff(wife) was dismissed in the 9-20-2017 court. Thus,
the defendant(husband) visited his wife's home as a legitimate couple. Therefore, the
family court which had to protect the family, became a monster that destroyed the
family. Therefore, the restraining order decided by the court is an unconstitutional
judgment that ignores human rights.
2.) Also, the respondent(wife) applied for TRO extension again after one year. The
plaintiff(husband) had no contact with the respondent(wife). However, the judge asked
a guiding question if it was scary, and the wife answered "Yes".
I claimed it was the wife's character flaw, but it was rejected. The judge then issued a
heavy additional five-year restraining order on the innocent husband. Such law
enforcement procedures clearly have institutional inconsistencies. This is a violation of
the human rights guaranteed by the Constitution. This is a violation of fairness by the
courts in the enforcement process. Therefore, this was an unconstitutional judgment in
violation of the principle of equality.
Q: How does the U.S. Supreme Court interpret the defendant's(husband) argument
described above ?

Ouestion - 6 ; "About suspension of payment of Spousal support"
1.) The Family Court suspended the Spousal support that should be paid to the
defendant(husband), arguing that the TRO itself is evidence of domestic violence.
2.) During the TRO trial(hearing), the defendant admitted that the judge had no
evidence of domestic violence. It is clearly stated in the shorthand record of that
time. Nevertheless
The family court judge ignored the defendant's argument.

This roveMloi I sHiiiTrre-jnstitutinnnl inmnr.ir.tnnnieis in the process of law enforcement

Q: How does the U.S. Federal Supreme Court interpret the defendant's (husband)
argument described above ?

Question - 7 ; " About the institutional contradiction of the law enforcement trial(hearing)
process."
1.) At the TRO trial(hearing) requested by the plaintiff(husband) against the
respondent(wife), his wife did not appear. If so, the court should of course proceed with
a trial in which she is absent. However, the judge asked the respondent's(wife) lawyer
over the phone. Lawyers falsely testified that she did not receive a TRO order. The
judge confirmed that "Proof of Service" had already been submitted to the
court. Nevertheless, the judge condoned false testimony.
2.) In the subsequent TRO trial(hearing), the judge dismissed the respondent's(wife)
and son and daughter-in-law despite sufficient evidence of domestic violence. The
judge asked the plaintiff(husband) if yor were afraid of your wife's violence. But the
husband's position was to love his wife, so there was no reason to be afraid. [1 John
4:18] . So he replied that it was painful because of depression. Actually I tried
suicide. I later found out that whether there is fear or not is an important issue in the
TRO trial(trial). However, the reason I requested a TRO trial(hearing) is because the
judge emphasized the TRO request twice. In other words, it was to prove that the
husband was a victim of domestic violence. However, because he answered that he
was not afraid, he was at a disadvantage during the TRO trial and divorce
proceedings. This is a structural contradiction in the trial process. Therefore, the
respondent's(wife) domestic violence, divorce request, TRO application, and
suspension of payment of spousal support were justified. This is revealing the
institutional inconsistency in the process of law enforcement.
3.) As another example, in the third restraining trial(hearing) requested by the
plaintiff(wife) on November 9, 2017, the plaintiff delivered the TRO order documents
directly to the defendant(husband). And the judge confirmed that she did not file a
"Proof of Service" with the court. Then, of course, the trial cannot proceed. However,
the judge proceeded with the trial. As such, the judges of the Family Court were always
tolerant of the faults of the plaintiff(wife) and were too strict with the
defendant(husband). This proves to itself that the judges of the family court are unfair.
4.) Meanwhile, a TRO was sought to prove that plaintiff's(wife) son had used
murderous violence against his stepfather. However, the judge dismissed it as not
having jurisdiction because it was not a family relationship. How is it that the
relationship between parent and child is not a family relationship ? If so, how can you
prove that the plaintiff (husband) is a victim of violence ? The court had no guidance. Is
this really a fair trial(hearing) procedure of the Family Court ?

<27

Q: How does the Federal Supreme Court interpret the petitioner's(husband) argument
described above ?

Question - 8 ; "About the reasons for divorce".
The current California Family Court's divorce law permits a divorce in an instant by one
side's unilateral request for divorce, without the consent of both parties, regardless of
the grounds for divorce. Ah III How unfair is this ?
Are you saying that your spouse is a daily worker ? Then why did she take the oath of
marriage and promise to love her to the end that ? Moreover, Catholics believe that the
union of husband and wife is the sacrament of marriage, which is distinct from worldly
customs. In the Holy Trinity(God) makes a sacred promise to the couple to love for the
rest of their lives. So, to be distinguished from the world, they start and continue their
married life in a covenant marriage relationship. However, the family court, which is
supposed to protect the family, treats the marriage relationship promised by the
agreement of both parties more loosely than the contractual relationship under the civil
law. How can the family be maintained if the court recognizes and does not keep the
oath between the two ? The concept of the law is a promise. So a promise is a
law. Therefore, there must be a justifiable reason to break the promise. However, it is
a legal contradiction that a court that observes the law does not consider the reasons
for the violation. Sometimes the judge asks the reason for the divorce. Then, if the
plaintiff replies that it is a personality difference, the divorce is established without
further questioning. No one in this world has the same personality. Just as the Creator
has a different face, everyone was created as unique beings with different
personalities. You can't make a person's personality mechanically the same. This too
simple common sense is overlooked by the Family Court. As a result, the Family Court
is taking the lead in leading many families to lead tragic lives. The courts continue to do
this despite the inconsistency of the legal system. The same is true for the petitioner
and the defendant. The divorce trial(hearing) ended when the judge of the Family Court
declared, "California family law establishes a divorce without the consent of both
parties" without asking the reason for the divorce. Ah!!! How futile is this trial ? The
defendant's statements or protests will not be considered at all. This violates the
principles of fairness and equality guaranteed by the Constitution. My husband and I
chose to have a wedding according to the Catholic law because we know these divorce
laws well, and we promised that "we cannot divorce without a legitimate reason for
divorce." This is clearly distinct from social law. However, the family court rejected
even the defendant's statement and closed the
divorce trial. How inconsistent is this system of divorce trials ? In the case of my
husband and I, we lived happily in the same house until yesterday. Like a young man,
he was enjoying a prosperous sex life. Her wife used to brag about our happy marriage
to her neighbors. But the next day, suddenly, her wife's son assaulted her stepfather in
a murderous manner. The defendant felt threatened and called the police. But the wife
and son "requested a divorce becauseher husband called the police. And he made a

o18

statement in court." I~he reality of divorce Itials ii i tl le family court today is-t-hat the judge
listens to these stupid reasons for divorce and ignores them. Marriage conditions and
promises of love that the two promised before marriage are not taken into account at
all. Because of this divorce trial system, many people are abusing the right to divorce
by abusing California family law. As a result, divorced families are produced in large
numbers, and they are facing a crisis of national collapse. Therefore, the family court
became an accomplice in the destruction of the family.
B.C. 1.500 around, According to the Mosaic Law, when a woman was expelled from the
house, a divorce certificate had to be written. In the ancient society, women's human
rights were almost nonexistent. So when the married woman was driven out of the
house, she could not marry again, so she had to live as a slave. This was a
consideration to protect women even in times when human rights were not protected.
However, in the 21st century American society, where human rights are most
respected, today's divorce system, in which spouses were kicked out of their homes
without giving them a certificate of divorce, ordering an unfounded TRO, and stopping
spousal support, is clearly an abuse of the right to divorce.
Accordingly, the petitioner(husband) is appealing to the U.S. Supreme Court the
contradictory family court enforcement process.
Q: How does the U.S. Supreme Court interpret Petitioner's (husband) argument
described above ?
Thank you very much II

Respetfully submitted,

July 30, 2021

4#
Jun

aq

'Uk
on Yun, Petitioner

" Asking for punitive compensation."
and "additional information"
{ Because it is Google mechanical translation, there is a slight difference in
expression }
A.

Reason and purpose ;

The step-father warned the respondent's son(Michael Kim) several times to stop
arguing. Nevertheless, the son beat(hit) the stepfather's shoulder with his right hand,
and with left hand, he grabbed the step-father's neck and pressed it, making it
impossible to breathe. So I fainted for a while. And the son raised his right hand up
and tried to hit the step-father again. At this time, I felt the extreme fear of death. It's
because the son is a taekwondo trained athlete who breaks hard bricks with his hands.
At this time, the three young children who were next to him cried out in amazement at
the horrific sight of violence. Up to this point, the daughter-in-law did not stop her
husband's argument and only looked at him. However, sensing the urgency of her
condition, she stopped her husband's fight. Excited by her parents' order to stop
arguing, They used murderous assault on their parents. But the son and his wife have
not apologized to the step-father until this day. When the police investigation was over,
the son strongly threatened the stepfather, saying, "You must divorce for my
mother." At the son's request, my wife made her husband deliberately seek murderous
domestic violence and divorce. Such atrocities of the Kim's family are unforgivable
crimes. Because, The Kim's family is a typical dysfunctional family. This is the cause of
the Kim's family's unhappiness. Nevertheless, with superhuman patience, Plaintiff(Jung
Won Yun) had been praying to Jesus, whom I trusted and depended on, every morning
at church in order for the Kim's family to repent and restore their Christian
identity. More than three years have already passed. Everyone around me advised me
to give up. This includes priests and lawyers. Nevertheless, what was the reason and
purpose of the petitioner not giving up and appealing to the U.S. Supreme Court ? This
is for only one reason. In God, "Because of the promise to love my wife to the
end." Because my promise to God is my life. Because this is the last mission God has
given me. Because the love God has given me is the most powerful force in this
world. This is obeying Jesus' command to "love your enemies". "There is no greater
love than this to die for your enemies." So I'm actually dying both physically and
mentally. So I actually became a living corpse as a whole. Here, if the Kim's family
repents, asks for forgiveness, and reconciles with the petitioner, my efforts will be
successful. Nevertheless, if the Kim's family refuses the petitioner's continued request,
we request punitive compensation. And any money paid to the petitioner will be
returned to society. This is converted into donations and used as a rehabilitation fund
for disadvantaged neighbors.
1. Son and daughter-in-law;

30

1.) $400,000 is the amount of damage to the personal property of the claimant
(husband) due to the wildfire. The mother's property manager, son and daughter-in-law,
received the fire insurance money. However, no $1 was paid to the victim.
2.) They used murderous violence against their step-father. The result has been
irreversible psychological Wound and Trauma. Therefore, it requests a punitive
compensation of $300,000.
3.) They deliberately blocked the step-father's personal commercial phone
number. Claims $30,000 in damages for this.
4.) Therefore, the son and daughter-in-law, who are the custodians of the mother's
property, should compensate.
2. For the defendant(wife) ;
1.) If the defendant(wife) reconciles with her husband and her husband and wife reunite,
We will not claim compensation. However, if you do not comply with the reconciliation
order of the U.S. Supreme Court, we request punitive damages as follows.
Punitive compensation amount; $525,600
Calculation standard ;
(a) the length of marriage; 4 years
(b) hourly compensation; $15
(c) calculation; 365 days * 24 hours x 4 years * $15 = $525,600
2.) You must pay $3,000 per month for spousal support. This must continue until the
defendant reconciles with her husband. Because we are still a married, legal couple.
3. All amounts of punitive compensation must be paid to the Family Ministry Center INC
(non-profit organization). It deposit to as a donation amount. These donations should
be used to help underprivileged neighbors.
Thank you very much !!!

B.

ADDITIONAL INFORMATION ;
Summary ;

The applicant is a 77-year-old retired handicap old man.
And my wife is a 80 years. He is a Korean American citizen who lacks English. He is a
low-income group currently living on SSA $969. Therefore, they do not have the money
3I

lo him hi i allomey. Therefore, ho io incapable of writing litigation papers with legal logic
and words. And he wrote all the sentences with Google Translate. So there is a slight
difference in expression.
The applicant said, "The California Family Court's decision to divorce is
unconstitutional." So, He just appeal to the court for the unfair circumstances. I eagerly
ask that the U.S. Supreme Court have pity on the Applicant and grant grace to the
Petitioner and Respondents, So that he may love his dear wife and her families. The
purpose of the Petitioner's lawsuit is only to restore the ruined family.
If the U.S. Supreme Court responds to the applicant's request, it is expected that the
rapidly increasing divorce trend will be reduced and will greatly contribute to the country
and society.
Thank you very much I!

1. Please see the attached content, for a detailed explanation
It was summarized in "FINAL BRIEFING = 5"
2. Please see "BRIEFING: from 1 to 5" for a more detailed explanation I
3. Please see the attached reference for "more and more" detailed explanation
4. Below, reference materials that have been submitted to the courts.
1 ) The Federal Court of Appeals ;
(1)
(2)
(3)
(4)
(5)
(6)
(7)

Title
Title
Title
Title
Title
Title
Title

=
=
=
=
=
=
=

21
22
23
24
25
26
27

/
/
/
/
/
/
/

"The founding ideology of the U.S"
"BRIEFING = 1" { Submission completed }
"BRIEFING = 2" { Submission completed }
"BRIEFING = 3" { Submission completed }
"QUESTIONS" { Submission completed }
"BRIEFING = 4" { Submission completed }
"FINAL BRIEFING = 5" {I submitted today }

2 ) The Federal District Court;
20Kinds ; Declaration of Jungwon Yun = from 1 ~ to 20
already filed it with the court.}
3 )

{I had

California Superior Family Court;

(1) 48 Kinds ; Declaration of Jungwon Yun = 252 Pages.
{ I had already filed it with the court.}
(2) Court records filed with Superior Family Court
{ 1242 Pages; I had already filed it with the court.}
Anything submitted to the California Superior Family Court
has already been filed with the Federal Court of Appeals. Therefore, these materials
are in large volume and will be additionally submitted upon request by the

U.S. Supreme Court.
5. Additional references. {I had already filed it (All) with the court.}
(1) Wedding photos of the sacrament of marriage
(2) 11-09-2017, TRO trial summary.
(3) My wife's murderous domestic violence is ongoing now.
(4) 12-11-2017, Summary of Default trial contents.[Divorce]
(5) Summary of trial contents
(6) Affidavit filed with the court prior to the date of the first divorce trial.
(7) The defendant petitions in advance the hearing date for the following reasons.
(8) For Police Reports.
(9) Fire Damage Amount.
(10) Telephone Blocking Damages Costs.
(11) Hospital Records.
(12) Contrary arquement to "Vexatious litigat".
(13) Evidence that the plaintiffs requested a consent divorce.
(14) A copy of the letter from the U.S Court of Appeals for the 9th Circuit
(15) One copy of the document requested by the court to waive the filing fee for
appeal and
(16) One copy of the papers the petitioner had filed with The U.S Courts of
Appeals of California
THANK YOU VERY MUCH !!!

CONCLUSION

The petition for a writ of certiorari should be granted.
Respectfully submitted,
Date:

AUZ - 4 "

P-33

